DocuSign Envelope ID: A151D857-317D-4CC6-A45B-5A3280F443BE

Supreme Court of the United States of America
Petition for Writ of Certiorari to the Supreme Judicial Court of die Commonwealth of Massachusetts
In the Matter of:
Joachim Carlo Santos Martillo
and
Anthony Z. Bono,
Petitioners
vs.
Unknown Defendants To Be Named,
Respondents

Certificate of Service
I hereby declare that a copy of the Petition for Writ of Certiorari to the Supreme Judicial Court of the
Commonwealth of Massachusetts in the matter of: Joachim Carlo Santos Martillo and Anthony Z.
Bono, Petitioners vs. Unknown Defendants To Be Named, Respondents has been served to every known
party in the above captioned proceeding on 1/24/2021

Dated:

1/24/2021

Respectfully submitted by
r— DocuSigned by:

Joa3umACarfo Santos Martillo
Patent Agent (USPTO Registration: 76,552)
75 Bailey St Ste. 1L
ThorsProvoni@protonmail.com
617-276-5788
Pro se

Received
FEB 1 2 2021

